rf

>
!

Supreme Court, U.S.
FILED

20-5183

JUN 2 2 2020

No.

OFFICE OF THE CLERK

3tt tlje

Supreme Court of tlje aUntteb ibtatcsi
KEITH HOGLUND®
Petitioner,
v

RON NEAL d/b/a Superintendent
Respondent(s)

On Petition for Writ of Certiorari
from the United States Court of Appeals for the Seventh Circuit
U.S.C.A.-7th Circuit cause no. 18-2949

PETITION FOR WRIT OF CERTIORARI

1G1NAL

Keith Hoglund, SPC; Agent
in behalf of KEITH HOGLUND TRUST®
c/o ONE Park Row , Ste. 208173
Michigan City, Indiana state
Non resident/ Non assumpsit
Appellant “pro per”

No.

3n$e
Supreme Court of tl)e fHniteti States:
KEITH HOGLUND®
Petitioner,
V
RON NEAL d/b/a Superintendent
Respondent(s)

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a writ of
certiorari contains 8842 words, excluding the parts of the petition that are
exempted by the Supreme Court Rule 33.1(d)
I declare under penalty of perjury that the foregoing is true and correct.

, of
Executed on this 7 -M day

CJZl

1

s/ KEITH HOGLUND
DEBTOR Signature

2020

By:
For all communiques elsewhere
“Without prejudice”
Keith Hoglund, SPC; Agent
in behalf of the KEITH HOGLUND TRUST®
c/o ONE Park Row
City of Michigan City, Indiana state, united States of America
DMM Reg. sec. 122.32; Public law 91-375, sec. 403
Appellant “pro per■”

2

QUESTION(S) PRESENTED
Issue I: Whether the lower court(s) violated Keith Hoglund’s substantive and
procedural due process rights by their holding(s) that there was no reasonable
probability that without the hearsay testimony of the experts the trial would have
come out differently; thereby violating the Fifth, Sixth, Eighth, Ninth, Tenth,
Eleventh, and Fourteenth Constitutional amendments for the united States.
Petitioner answers: Yes

Issue II: Whether Keith Hoglund’s substantive and procedural due process rights
were violated when the lower court(s) found the admission of expert vouching
testimony in this matter “harmless” under the circumstances and facts of this case
thereby violating the Fifth, Sixth, Eighth, Ninth, Tenth, Eleventh, and Fourteenth
Constitutional amendments for the united States.

Petitioner answers: Yes

3

U-'

•V

LIST OF PARTIES
All Parties appear in the caption of the case on the cover page

DISCLAIMER
I, Keith Hoglund® do hereby reserve my right not to be compelled to perform
under any contract or commercial agreement that I did not enter into knowingly,
voluntarily and intentionally. I also do not accept the liability of any compelled
benefit of any unrevealed contract or commercial agreement. “Without Prejudice”
Dated this / j_ day of

k

7Zl

0

2020, C.E.

si KEITH HOGLUND
DEBTOR Signature
By:
Keith Hoglund, Authorized Representative
for the KEITH HOGLUND TRUST®
c/o ONE Park Row
City of Michigan City, Indiana state, united States of America
DMM Reg. sec. 122.32; Public law 91-375, sec. 403
Appellant “pro pef

4

TABLE OF CONTENTS

TABLE OF CONTENTS

5

INDEX TO APPENDICES

6

TABLE OF AUTHORITIES

7, 8

JURISDICTION

9

CONSTITUTIONAL, STATUTORY PROVISIONS AND RULES INVOLVED

9, 10

STATEMENT OF THE CASE

10

Background

10

Direct Appeal

13

Jury Trial

13

Post-Conviction Proceedings

14

U. S. District Court-Northern District of Indiana/ South Bend Division

15

United States Court of Appeals-Seventh Circuit

16

ARGUMENT

21

Issue I: Whether the lower court(s) have violated Keith Hoglund’s substantive and
procedural due process rights by their holding(s) that there was no reasonable
probability that without the hearsay testimony of the experts the trial would have come
out differently; thereby violating the Fifth, Sixth, Eighth, Ninth, Tenth, Eleventh, and
Fourteenth Constitutional amendments for the united States.

21

Issue II: Keith Hoglund’s substantive and procedural due process rights were violated
when the lower courts found the admission of expert vouching testimony in this matter
harmless under the circumstances and facts of this case violating the Sixth, Eighth,
Ninth, and Fourteenth Constitutional Amendments for the united States.

33

REASON FOR GRANTING THE WRIT

17

REASONS FOR GRANTING THE PETITION

18

CONCLUSION

39
5

«*•

INDEX TO APPENDICES
APPENDIX A.....................................................................................................................

3

Re-hearing re: United States Court of Appeals for the Seventh Circuit denied; reported at: Hoglund v Neal, cause 18-2949: 2020 U.S. App.
LEXIS 19163 (7th Cir. Ind. June 18, 2020)
APPENDIX B........................................ ............................................................................. 4-17
The opinion of the United States Court of Appeals for the Seventh
Circuit denying relief is reported at: Hoglund v Neal, cause 18-2949: 959
F. 3d. 819 (7th Cir. 2020)
APPENDIX C..................................................................................................................... 18-29
The opinion of the United States District Court, Northern District of
Indiana (South Bend division) denying relief is reported at: Hoglund v
Superintendent, Westlaw 2018 WL 4006399/Cause No. 3:16-CV-313PPS-MGG
APPENDIX D..................................................................................................................... 30-43
The unpublished opinion of the Indiana Court of Appeals denying relief
is reported at: Hoglund v. State, case no. 90A02-1503-PC-182: 46 N.E.
3d. 1284 (Ind. Ct. App. 2016) transfer denied: 49 N.E. 3d 107 (Ind. 2016)
3
APPENDIX E..................................................................................................................... 44-58
The opinion of the Indiana Supreme Court denying relief is reported at:
Hoglund v State, 962 N.E. 2d. 1230 (Ind. 2012) reh’g denied
APPENDIX F..................................................... :.............................................................. 59-78
The opinion of the Indiana Court of Appeals denying relief is reported
at: Hoglund v. State, —N.E.2d.—, 2011 Ind. App. LEXIS 224 (2011):

6

TABLE OF AUTHORITIES
Cases
Berger, 295 U.S. at 88

35

California v Green, 399 U.S. 149, 90 S. Ct. 1930, (1970)

18

Craig v State, 630 N.E.2d 207 and. 1994)

32

Douglas v State, 484 N.E.2d 610 (1985)

32

Foster v California, 394 U.S. 440, 89 S. Ct. 1127 (1969)

20

Howard v O’Sullivan, 185 F. 3d 721, 723-24 (CA7 1999)

33, 37

Idaho v Wright, 497 US 805, 110 S. Ct. 3139 (1990)

19

In Re Winship, 397 US 358, 364 (1970)

38

Jordan v Hepp, 831 F.3d 837, 848 (CA7 2016)

35

Manson v Brathwaite, 432 U.S. 98; 97 S. Ct. 2243 (1977)

18

Martin v Lilly, 121 N.E. 443, 446 (Ind. 1919)

23

Maryland v Craig, 497 U.S. 836, 110 S. Ct. 3157 (1990)

18

Napue v Illinois (1959) 360 US 264, 79 S. Ct. 1173, 3 L. Ed. 2d 1217

32

Ohio v Roberts, 448 US 56, 100 S. Ct. 2539 (1980)

19

People v Blackman, 488 N.Y.S. 2d 395 (1st Dept. 1985)

18

Rose v State, 846 N.E. 2d 363, 368 (Ind. Ct. App. 2006)

23

State v Boston, 545 N.E. 2d 1220, 1240 (Ohio 1989)

27

State v Dever, 596 N.E. 2d 436 (Ohio 1992)

27

State v Mazerolle, 614 A. 2d 68, 71 (Me. 1992)

27

State v Williams, 858 S.W. 2d 796, 800 (Mo. Ct. App. 1993)

27

7

State v. Lindsey, 149 Ariz. 472, 475 (1986)

27

Steward v. State, 652 N.E.2d 490 (1995)

32

Stone v State, 536 N.E.2d. 534, 540 (Ind. Ct. App. 1989)

21

United States v Acceturo, 966 F.2d. 631 (11th Cir. 1992)

28

United States v Cornett, 232 F. 3d 570, 575-76 (CA7 2000)

34

United States v Deeb, 13 F. 3d. 1532 (11th Cir. 1995)

28

United States v Maldonado-Rivera, 922 F. 2d 934 (2d Cir. 1990)

18

United States v Memar, 906 F. 3d 652, 658-59 (CA7 2018)

35

United States v Renteria, 106 F.3d 765, 767 (CA7 1997)

34

United States v Wade, 388 U.S. 218, 87 S. Ct. 1926 (1967)

20

US v Loayza, 107 F.3d 257, 261 (4* Cir. 1997)

26

White v Illinois, 502 US 346, 112 S. Ct. 736 (1992;

19

Williams, 858 S.W. 2d at 800

37

Williams, 858 S.W. 2d at 801

27

Wray v Johnson, 202 F. 3d. 515 (2d Cir. 2000)

18

Wright, 497 U.S. at 82.7, 110 S. Ct. at 3152....

30

Rules
Indiana Evidence Rule 704(b)

23

Indiana Evidence Rule 803(4)

28

8

JURISDICTION
The United States district court for the northern district of Indiana had
jurisdiction over Keith Hoglund’s petition for a writ of habeas corpus1 under 28 U.S.C.
§§ 1331, 2241, and 2254. The court denied that petition in a final judgement on
August 22, 2018. At the same time, the district court granted a ‘certificate of
appealability’. Keith Hoglund filed a timely notice of appeal on September 7, 2018.
The United States court of appeals for the seventh circuit2 had jurisdiction under 28
U.S.C §§ 1291 and 2253. The judgment of the United States Court of Appeals for the
Seventh Circuit denied habeas relief to Hoglund. A ‘petition for rehearing en banc’
was timely filed and subsequently denied. The jurisdiction of this Court is now
invoked under 28 U.S.C. § 1254 (1).
CONSTITUTIONAL, STATUTORY PROVISIONS AND RULES INVOLVED
•

AMENDMENT 5 - “No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of law; nor shall private property be taken for
public use, without just compensation.”

•

AMENDMENT 6 - “In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.”

•

AMENDMENT 8 - “Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.”

•

AMENDMENT 9 - “The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people.”

•

AMENDMENT 10 -“The powers not delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the States respectively, or to the people.”

•

AMENDMENT 11 -“The Judicial power of the United States shall not be construed to extend
to any suit in law or equity, commenced or prosecuted against one of the United States by
Citizens of another State, or by Citizens or Subjects of any Foreign State.”

•

AMENDMENT 14 -Section 1. [Citizens of the United States.] “[N]o State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.”

1 Cause No. 3:16-CV-313-PPS-MGG
2 Cause No. 18-2949
9

STATEMENT OF THE CASE
Background
In June 1998, Keith Hoglund (Hoglund) and Teresa Malott-Hoglund (Malott)
were married [Tr.87] and two daughters were born into the marriage. Tr.88. The
couple purchased property in Wells County, Indiana in June 2002, and were
separated in November 2005. Tr.93.
On or about January 15, 2006, Hoglund informed Malott that he was in love
with another woman; with whom he had been having relations with. An “extremely
upset and angry” [Tr.94] Malott “decided right then to get a divorce” and have
Hoglund “come back to get his belongings”. Tr.95. Anticipating his arrival on
February 6, 2006, [Tr.96] Malott set out “to bury” Hoglund (See Exhibit 1) by arming
herself with a ‘story’ of an alleged molestation. Malott then met with Detective Scott
Holliday (“Holliday”) on February 4, 2006 [Tr.138] and February 6, 2006. Tr.139.
Hoglund, unaware of Malott’s plans, finally arrived at the couple’s property on
February 8, 2006. He looked for his children; only to find the house packed up with
nobody home. Oddly, while at the house, Hoglund received multiple calls from
Holliday informing he needed to speak to him re: his family. Tr. 146, 158. Concerned
about the well-being of his family, Hoglund agreed to meet with Detective Holliday
at the Wells County Sheriffs Dept. (W.C.S.D.) only to find out what had happened,
and where they were. Hoglund was escorted into the W.C.S.D., whereby the door
locked behind him preventing him from leaving [in custody, and deprived of his
freedom].

10

When Hoglund inquired about his family he was instructed to “first sign the paper”
that contained his “Miranda” rights. Hoglund refused and again asked if his family
was ok. The waiver was again slid in front of Hoglund. In an effort to obtain
information on the whereabouts of his family — Hoglund under duress - signed the
form. A.31. For the next 2:05:24,3 Hoglund maintained his innocence while countering
Holliday’s hypothetical questions. Unable to obtain a much sought after confession,
Holliday released Hoglund and escorted him back to the couples’ property so he could
gather some of his belongings before heading back to his domicile in Utah. Tr.229,
230; and D. Tr.449 (Malott’s deposition).
Three months later on May 4, 2006, Hoglund was charged with violating
Indiana Code § 35-42-4-3(a)(l). The warrant4 issued commanded the arrest for one
KEITH A. HOGLUND - 0914 W. 300 S., BLUFFTON, IN 46714. A 38.
On June 21, 2006, Hoglund was abducted from his domicile located at 4783 S.
Pintail Court; Holiday, Utah. He was then held hostage for thirty (30) days at the
Salt Lake County Jail before being transported as a ‘fugitive from justice’. On August
3, 2006, Hoglund arrived in Indiana from being transported as a “fugitive”. Without
diversity jurisdiction, Hoglund was brought before the Wells County Circuit Court
(under ‘procedural unconscionability’) to create an adhesion contract without his
knowledge. Note * Hoglund was never provided with a copy of the information, the

3 State's Exhibit #7
4 This contract was rejected and returned in full accord with truth in lending nunc pro tunc-ab initio. See
U.S.D.C. Docket No Is) 13-17, and 37.
11

complaint, or any of the affidavit(s) attached thereto by an accuser. Moreover,
Hoglund was never informed as to the true nature and cause against him.
After being held for one (1) year without trial and maintaining his innocence,
Hoglund was released July 2, 2007. A.89-90. A few months later, Gregory Kauffman
was appointed [A. 122] as counsel, and was instructed by Hoglund to follow-up on his
Criminal Rule 4(C) motion he had mailed to the court to ensure the case had truly
been dismissed. However, without warning or notice to Hoglund, Kauffman withdrew
his appearance on December 12, 2008, [A. 145] and the court sua sponte appointed
John Clifton on December 23, 2008. A. 147. Sixteen (16) months later on April 13,
2010, Clifton who was unknown to Hoglund, called him for the first time to inform of
the upcoming trial date set for April 20, 2010. In an effort to clear his name, Hoglund
arrived in Indiana on April 19, 2010 @ 11:00 pm with only nine hours remaining until
jury trial.
Jury Trial
On April 20, 2010, four years from the date of the warrant a jury trial
commenced. During the course of the trial, multiple due process violations ensued
depriving Hoglund of life, liberty, and property. One violation included the allowance
of three (3) expert witnesses: a pediatrician [Tr. 74-87], a psychiatrist [Tr. 175-192],
and a mental health counselor [Tr. 118-136], to recite and embellish upon out of court
statements allegedly made by A.H. —one year later— after she had testified [Tr. 2073] and left the courtroom thus rendering her unavailable for cross examination.
Further, there was no testimony that A.H. understood that she was being examined
12

by these experts for treatment. Tr. 20-73. There was no testimony from A.H. or her
parents concerning her past experience with medical facilities from which to infer
A.H. even knew the purpose of examinations. Tr. 88-118; Tr. 197-233.
Ultimately, Hoglund was found guilty of the two identical counts created and
sentenced to fifty (50) years for one (1) of the class A felony count(s) due to double
jeopardy concerns. S Tr. 15.
Direct Appeal
On August 26, 2010, a Brief was filed by court appointed attorney John Pinnow
(“Pinnow”) in the Indiana Court of Appeals: 90A02-1005-CR-591(“CR-591”). On
September 3, 2010, the State filed their Appellee’s Brief. On October 12, 2010, a Reply
Brief was filed and on November 1, 2010, the Indiana Court of Appeals set CR-591
for oral argument. This court found that Lawrence v State, 464 N.E.2d 923 (Ind.
1984), like Carter v State, 754 N.E.2d 877 (Ind. 2001) allowed for indirect vouching of
a child victim in molestation cases and on February 22, 2011, affirmed conviction.
On March 8, 2011, Pinnow filed a Petition to Transfer with the Indiana
supreme court: 90S02-1105-CR-294 (“CR-294”) and on May 20, 2011, the Indiana
Supreme court granted transfer. Hoglund v State, 962 N.E.2d 1230 (Ind. 2012) reh’g
denied. Oral arguments were set for May 24, 2011. On March 8, 2012, the Indiana
supreme court overruled Lawrence [PCR Tr. 7] and brought Ind. R. of Evid. 702(b)
into position under law re: vouching testimony. Moreover, the court found that the
vouching statements to which Clifton had objected to were erroneously admitted, but

13

the admission was found to be ‘harmless’. PCR Tr. 7. Hoglund then filed a petition for
rehearing which was granted and subsequently denied on June 27, 2012.
Post-Conviction Proceedings
On September 17, 2012, a Petition for Post-Conviction Relief was filed: 90C011209-PC-6. PCR App. 1. On March 28, 2013, court appointed Joel Wieneke
(“Wieneke”) amended and filed a Post-Conviction Relief Petition. PCR App. 8.
Bi-furcated evidentiary hearings were held on November 25, 2014, and
December 19, 2014. It was found that Clifton “may have inartfully impeached A.H.’s
testimony at trial by using prior inconsistent statements . . . but found these to be
tactical or strategic shortcomings which did not individually or cumulatively render
his performance deficient”. PCR App. 41-42. Moreover, even if the court assumed that
Clifton’s performance was deficient Petitioner failed to show that he would have been
acquitted. PCR App. 42. The court then erroneously ruled that Petitioner was
convicted because of “evidence properly before the jury” and denied his Petition. PCR
App. 42 (Emphasis original).
On August 7, 2015, Wieneke filed a Brief of Appellant: 90A02-1503-PC-182
(“PC-182”). On October 21, 2015, the state filed a Brief of Appellee. The court of
appeals concluded that it made no difference that Petitioner failed to consistently
object to the vouching testimony, because “the trial court would not have sustained
an objection should one have been timely made.” Id. slip op at 9. Additionally, the
court ruled that an admonishment was an adequate cure for the direct vouching from
Dr. Butler, but did not address the direct vouching from counselor Shestak or Dr.
14

Mayle. The court of appeals concluded that the admission of the hearsay statements
without demanding proper foundation was deficient performance but concluded that
no prejudice resulted because it was harmless error due to being cumulative. Id. slip
op at 13. The court of appeals decision then affirmed the denial of post-conviction
relief. A petition to transfer was filed and denied on April 21, 2016.
U. S. District Court-Northern District of Indiana/ South Bend Division
On May 20, 2016, Hoglund filed [3:16-CV-313] a Habeas Corpus Petition, an
affidavit, and a special limited appearance. A few months later on September 16,
2016—at his first opportunity to set the record straight—Hoglund filed truth
affidavit(s) in an effort to correct the Indiana’s supreme courts’ rendition of the
inaccurate statement of facts. These corrected facts were presented as the “true” facts
to set the record straight as the court(s) rendition was comprised of un-reliable
evidence, and a conclusions based on bad data.
The Respondent(s) were then ordered to file a response with a full state record
by November 28, 2016.5 In their response, they failed to address the multiple truth
affidavit(s)

et al.

Moreover,

their response6

contained multiple

egregious

misrepresentations, and for their failure to certify (as requested) under the penalty
of perjury this filing was rejected7 pursuant to Public Law 95-109, § 805C, The Fair
Debt Collection Practices Act U.S.C.A. § 1601, 1692.

5 U.S.D.C. Docket No. 18
6 U.S.D.C. Docket No. 20
7 U.S.D.C. Docket No. 23

15

On August 22, 2018, Petitioner’s Habeas Corpus Petition was denied, but was
granted a ‘certificate of appealability’. The court recognized that “[o]n direct appeal,
Hoglund was told that the trial court error was harmless due to trial counsel’s
mistakes; but on Post-Conviction Appeal Hoglund was told that the trial counsel’s
performance was not deficient; and neither decision discussed whether the vouching
testimony in its entirety was prejudicial” (Opinion and Order pg. 22)
United States Court of Appeals-Seventh Circuit
On September 24, 2018, Hoglund filed a Brief of Appellant. Respondent’s filed
their Brief of Appellee on January 16, 2019. A Reply Brief was filed on January 25
2019. After reviewing the parties’ briefs and the record on appeal, the U.S.C.A.-7TH
Cir., determined that it would benefit from additional briefing and oral argument.
Accordingly, the Court sua sponte struck the briefs from the record and appointed
Counsel for Hoglund. Hoglund sent his appointed attorney a “Letter Rogatory” (with
a copy contemporaneously filed with the Attorney General and this court) providing
instructions for how he wanted the appointed counsel to proceed. As it has been
throughout this case, Hoglund’s wishes were ignored.
Andrew J. Bentz, at Jones Day, addressed the following issues on which the
district court granted a certificate of appealability; (1) whether trial counsel’s failure
to properly object to hearsay from three experts relaying what the victim had told
them constituted ineffective assistance of counsel, (2) whether the admission of
“vouching testimony” was a due process violation; and (3) whether the vouching claim
was procedurally defaulted. Ultimately the court held there was no reasonable
16

probability that without the hearsay testimony of the experts the trial would have
come out differently; and that the vouching testimony did not violate due process.
REASONS FOR GRANTING THE PETITION
Marbury v Madison8 established the power of the Supreme Court to review the
constitutionality of federal executive actions and of federal statutes. Two other cases
—Martin v Hunter’s Lessee9 and Cohens v Virginia10— were key in establishing the
Court’s authority to review state court decisions. Although the constitution does not
explicitly say that the Supreme Court may review state court decisions, the Judiciary
Act of 1789 provided for Supreme Court review of state court judgments. Section 25
of the act allowed the Supreme Court to review state court decisions by a writ of error
to the state’s highest court in many situations.11
Therefore, this Court should grant Petitioner’s petition for certiorari because
the Constitution “gives the federal judiciary the power, not merely to rule on cases,
but to decide them.”12 Moreover, the lower court(s) decision(s) are in violation of the
Fifth13, Sixth14, Eighth15, Ninth, Eleventh, and Fourteenth Amendment(s) to the

8 5 U.S. (1 Cranch) 137 (1803)
914 U.S. (1 Wheat) 304 (1816)
1019 U.S. (6 Wheat) 264 (1821)
11 Act of September 24,1789, ch 20,1 Stat. 73, 85-87.
12 Plaut v Spendthrift Farm, Inc. 115 S. Ct. 1447, 1453 (1995)
13 Benton v Maryland, 395 U.S. 784 (1969)(double jeopardy); Malloy v Hogan, 378 U.S. 1 (1964)(protection
against self-incrimination); Chicago, Burlington & Quincy R.R.. Co. v City of Chicago, 166 U.S. 226
(1897)(requirement that the government pay just compensation when it takes private property for public
use)
14 Irvin v Dowd, 366 U.S. 717 (1961)(impartial jury); In re Oliver, 333 U.S. 257 (1948)(with notice of the
charges); Pointer v Texas, 380 U.S. 400 (1965)(chance to confront adverse witnesses); Washington v Texas,
388 U.S. 14 (1967)(to have compulsory process to obtain favorable witnesses)
15 Harmelin v. Michigan, 501 U.S. 957,115 L. Ed. 2d 836 (1991)

17

Constitution for the united States of America. Further, it is of National importance,
having the Supreme Court stop a continuous ‘manifest injustice’ occurring in the
Indiana Court system(s).
Here, the lower court(s) have opinioned that there is no reasonable probability
that without the vouching hearsay testimony of the experts Hoglund’s trial would
have come out differently. This assumption is flawed. Further, the lower court(s) have
surmised that the alleged victim’s “well-rehearsed” story—coupled with Hoglund’s
statements to the police that were offered out of context by the detective during
trial—would have been sufficient for a conviction because her testimony was
“[sjtrong, compelling, graphic, often detailed, and consistent”16. This is a bold
assumption; basing the entire opinion on the fact that this case was determined by
‘reliable’ evidence. It was not. The alleged victim was coached/programmed to provide
misinformation about her experience(s). See Exhibit 1. Because this case was not
founded by “reliable” evidence, it must be overturned.
One of the most critical constitutional rights assured every defendant is the
right to be prosecuted by ‘reliable’ evidence.17 This constitutional right requires that

16 Appendix B- Hoglund v Neal, 7th Circuit 2020 -pg. 12/13, 3rd paragraph, line 3
17 United States Constitution Amendments V, VI, and XIV. Federal and State case law have consistently
upheld the principle that reliability is the linchpin of due process and that convictions built on unreliable
evidence cannot stand, e.g. Maryland v Craig, 497 U.S. 836,110 S. Ct. 3157 (1990) ("the central concern of
the confrontation clause is to ensure the reliability of the evidence against a defendant"); Manson v
Brathwaite, 432 U.S. 98; 97 S. Ct. 2243 (1977)("standard is that of fairness as required by the Due Process
Clause of the Fourteenth Amendment . . .); California v Green, 399 U.S. 149, 90 S. Ct. 1930, (1970)(due
process may prevent conviction where reliable evidentiary base is lacking); Wray v Johnson, 202 F. 3d. 515
(2d Cir. 2000)(reliability of evidence is the primary determinant of admissibility); United States v
Maldonado-Rivera, 922 F. 2d 934 (2d Cir. 1990); People v Blackman, 488 N.Y.S. 2d 395 (1st Dept.

18

all evidence presented against a criminal defendant must be what it purports to be.
Absent an assurance that a jury will be permitted to consider only reliable evidence,
it is impossible to know whether the result of the jury’s deliberation is reliable. Just
as a conclusion based on bad data cannot be supported, a jury verdict based on bad
information, such as tainted or adulterated evidence, cannot be supported. An
example of this is type of evidence —deemed inadmissible for want of reliabilityincludes out of court statements elicited through suggestive or coercive questions.
White v Illinois, 502 US 346, 112 S. Ct. 736 (1992); Idaho v Wright, 497 US 805, 110
S. Ct. 3139 (1990); Ohio v Roberts, 448 US 56, 100 S. Ct. 2539 (1980).
Commonly, in suggestibility experiments children experience a scripted event.
Some of the children are then questioned by adults who are provided with
misinformation about the child’s experience (creating biased interviewers) or who are
instructed to use various suggestive tactics.18 Additionally, children are suggestively
questioned about an event that never occurred.19 These experiments show that
children subjected to biased interviewers or suggestive tactics often make false
reports that are consistent with interviewer biases and suggestions rather than their

1985)("fairness . . . certainly requires that the proponents of the evidence meet a threshold of at least
minimum reliability")
18 Suggestive tactics employed in these experiments are often based on the tactics found in the record of
investigative interviews in actual criminal cases. Hunt, J.S., & Borgida, E., Is that what I said? Witnesses'
responses to interviewer modifications. Law and Human Behavior, 25 583-603 (2001); Garven, S., Wood,
J.M., Malpass, R & Shaw, J.S. (1998) More than suggestion: Consequences of the interviewing techniques
from the McMartin preschool case. Journal of Applied Psychology, 83 (3), 347-359
19 Bruck, Ceci and Hembrooke; Ceci, S.J., Crotteau-Huffman, M., Smith, E., & Loftus, E.W. (1994). Repeatedly
thinking about non-events. Consciousness and Cognition, 3, 388-407
19

actual experiences.20 Biased interviewers sometimes repeat the same question until
the child provides a response that is consistent with their hypothesis. A number of
studies have shown that asking children the same question(s) within an interview
can result in children changing their original answer (particularly if questions are
simple yes/no format) or involve terms that are ambiguous to children.21 In the
instant case the alleged victim was coached over the course of 4 years to ensure her
story remained “[s]trong, compelling, graphic, often detailed, and consistent”.
Further, studies have shown that once children have been subjected to
suggestive interviews, their inaccurate reports are indistinguishable from accurate
ones. As they come to incorporate interviewer suggestion as the truth, they relate it
as an actual experience. For this reason, once the child has been subjected to a
suggestive interview, there is no way to determine from the Childs’ report, demeanor,
or affect whether the child’s report is accurate or a reflection of interviewer bias and
suggestion.22 Courts have long recognized that the use of coercion or suggestion to

20 See, e.g., Ceci & Bruck, The suggestibility of the child witness: A historical review and synthesis.
Psychological Bulletin, 113, 403-439 (1993), and Ceci, S. J. & Bruck, M., Jeopardy in the Courtroom: A
scientific analysis of children's testimony. American Psychological Association Press: Washington DC (1995);
State v Michaels, 642 A. 2d 1372 (N.J. 1994).
21 See e.g. Poole, D.A. & White, L.T. (1995) Tell me again and again: stability and change in the repeated
testimonies of children and adults. In M.S. Zaragoza, J.R. Graham, G. C. N. Hall, R. Hirshman, & Y. S. BenPorath (Eds.), Memory and testimony in the child witness (pp. 24-43). Thousand Oaks, CA: Sage; Fivush, R.,
Peterson, C. & Schwarzmeuller, A. (2002) Questions and answers: the credibility of child witnesses in the
context of specific questioning techniques. In M. L. Eisen, J.A. Quas, & Goodman (Eds), Memory and
suggestibility in the forensic interview (pp. 331-354) Mahwah, NJ: Lawrence Erlbaum.
22 These studies involve showing to professionals, who work with children, videotapes of children reporting
on their staged experience after they have been subjected to either a suggestive or a neutral interview. The
studies also show that the professionals are unable to distinguish the accurate from the inaccurate reports.
Further, when asked to rate their confidence in their opinions as to whether the children's reports are
accurate or a result of suggestion, the professionals are most confident in their incorrect analysis, e.g.,
Bruck, Ceci, and Hembrook (2002); Leichtman, M.D., & Ceci, S.J. (1995). The effects of stereotypes and
20

elicit testimony can taint witness’ statements. Accordingly, statements elicited
through suggestion or coercion have long been deemed inadmissible because their use
at trial would violate a defendant’s due process or Confrontation Clause Rights.
United States v Wade, 388 U.S. 218, 87 S. Ct. 1926 (1967). For these reasons, this
Court should grant Petitioner’s petition for certiorari.
ARGUMENT
Issue I: The lower court(s) have violated Keith Hoglund’s substantive and procedural
due process rights by their holding(s) that there was no reasonable probability that
without the hearsay testimony of the experts the trial would have come out differently;
thereby violating the Fifth, Sixth, Eighth, Ninth, Tenth, Eleventh, and Fourteenth
Constitutional amendments for the united States.
This is a case where a wife learns of her husband’s love for another woman;
with whom he has been having relations with. In an effort to get even, the “extremely
upset and angry” [Tr.94] wife reports that her husband has abused one of their
children. An investigation ensues. It’s determined that there’s no physical evidence
to corroborate, there are no eye witnesses, and the husband has denied the
allegations. However, the “extremely upset and angry” wife and the alleged victim
continue to tell this incredible ‘story’ to multiple persons.
Teresa Malott-Hoglund's Deposition transcripts taken 01/16/2007; D. Tr. 37-42(298-307)
"[t]old his step mom Pat, my father, 911, Wells County Sheriffs Department, the
authorities from the Division of Family Services ..

suggestions on preschoolers' reports. Developmental Psychology, 31, 568-578. Another line of study
suggests that even well trained professionals cannot accurately differentiate between true and false
reports of sexual abuse (Realmuto, G., Jensen, J., & Wescoe, S. (1990) Specificity and sensitivity of sexually
anatomically correct dolls in substantiating abuse: A Pilot study. Journal of the American Academy of
adolescent Psychiatry, 29(5), 743-746; even when they are provided with extensive background
information about the case (Horner, T. M., Guyer, M. J., & Kalter, N.M. (1993a)). Clinical expertise and the
assessment of child sexual abuse. Journal of the American Academy of Child and Adolescent Psychiatry, 32,
925-931; Horner, T.M., Guyer, M. J., & Kalter, N.M., the biases of child sexual abuse experts: Believing is
seeing. Bulletin of the American Academy of Psychiatry and Law, 21, 281-292.

21

(298)

(300)

(302)
(307)

Q. [H]ave you told anyone else?
A. Since then?
Q. Uh-huh
A. Or before then?
Q. Since then
A. People that I have in my confidence know what transpired ... my father knows,
my sister knows, my brother knew before he died, Keith's family knew ..
A.[b]rother out in Utah, his sister and his other brother... friends of mine
A. friends at work know . .. Nesco ... my family might have told other people...
Tom Mink, Ryan "

A. H. testimony Direct Examination; Tr. 36(16-21).
Q. "[h]ow many people do you think you have had to tell the story to?
A. A lot. I have a lot of therapists, counselors, I usually talk to the school
counselor a lot.
Q.This isn't the first time you have had to tell the story?
A. No"

The State of Indiana—determined to get a conviction—enlists the aid of three local’
expert witnesses to testify that the alleged victim told them the same story. The State
knew that the alleged victim’s credibility thus would become “increasingly
unimpeachable as each adult added [her] personal eloquence, maturity, emotion, and
professionalism to [these unreliable] out-of-court statements”. Stone v State, 536
N.E.2d. 534, 540 (Ind. Ct. App. 1989).

These tactics, which were permitted by defense counsel’s failures allowed these
three expert witnesses: a pediatrician [Tr.74-87]; a psychiatrist [Tr. 175-192]; and a
mental health counselor [TR. 118-136] to recite23 and embellish upon out-of-court
statements allegedly made by A.H; one year later after the alleged incident stopped.
After testifying [Tr.20-73] A.H. leaves the courtroom rendering her unavailable for
any further cross examination to determine whether these statements (to the experts)

23 Ketcham vState, 240 Ind. 107; 162 N.E.2d 247; 1959 Ind. LEXIS 257
22

were actually made. This action denied Petitioner the right to cross examine.24 As a
result, all of the alleged hearsay statements made at the trial are inadmissible and
were used prejudicially to invoke the passions and prejudices of the jurors.
Dr. Butler, a pediatrician who met with A.H. on one occasion for over an hour
and conducted a medical examination of her after the accusations were reported to
authorities [Tr. 74, 81], was asked by the State to testify to hearsay statements
allegedly made by A.H. The State asked Dr. Butler if she believed that A.H. was prone
to “exaggerate or fabricate sexual matters.” Tr. 80. Clifton objected, arguing that Dr.
Butler was not able to make such a conclusion after meeting with A.H. on one occasion
for over an hour. However, Dr. Butler was allowed to answer over objection: “...so I
believe that what rA.H.1 told me was the truth because of her age and because people

24 Trover v State, 568 N.E.2d 1009 (lnd.1991); Patterson v State,263 Ind. 55, 324 N.E.2d 482(1975), The
Indiana Supreme Court held that out of court statements in a child sex abuse case by a declarant who is
present and available for cross examination may be used as substantive evidence. The party offering the
out-of-court statement as substantive evidence has the burden of establishing the proper foundation
[Douglass v State (1984), Ind. 466 N.E.2d 721, 724], which requires that the declarant, at trial acknowledge
making the statement and offer live testimony consistent with it. Lambert v State, (1989), Ind. 534 N.E.2d
235. If the declarant fails to meet both requirements, the statement is generally not admissible under
Patterson unless there was evidence from which the trial court could conclude that the witness made the
statement and remembered having done so, but is feigning lack of memory. Watkins vState, (1983), Ind.,
446 N.E.2d 949, 960-61. Whether the out of court statement is admissible as substantive evidence is to be
determined by the trial court on the basis of the witness' entire testimony. Hodges vState, (1988), Ind. 524
N.E.2d 774, 782.Of the foundational requirement is two-fold: (1) to ensure that the statement was actually
made, and (2) to preserve defendant's right to cross examine the witness. Watkins v State, 446 N.E.2d 949.
Where for example, a declarant neither admitted nor denied making the statement and refused to testify
on 5th amendment grounds, the declarant was not available for cross-examination. Brewster vState, (1983),
Ind. 450 N.E.2d 507, 510. Even if the declarant's in-court testimony is consistent with the out of court
statement, the foundation may be inadequate. Hendricks vState, (1990), Ind. 562 N.E.2d 725. The obvious
benefit of the Patterson rule is that it permits the admission of testimonial evidence of guilt that otherwise
would be lost. Watkins v State, 446 N./E.2d at 959; Stone v State, (1978), 268 Ind. 672, 679, 377 N.E.2d
1372,1375

23

don’t...” Tr.82 (emphasis added) at which point, Clifton objected, arguing that Dr.
Butler did not have the ability to tell whether A.H. was telling the truth, and such a
determination was for the jury. One party may not be permitted to get the other into
a dying condition and then expect the court to revive him by instruction. Martin u
Lilly, 121 N.E. 443, 446 (Ind. 1919)
By Dr. Butler overtly testifying that she believed that A.H. was being truthful,
Clifton should have requested a mistrial, as an admonishment to the jury would not
be sufficient cure for that direct vouching. PCR Tr. 75. Such direct vouching from a
medical doctor would have a powerful effect on a jury. PCR Tr. 74. Dr. Butler’s
statements violated the prohibition in Indiana Evidence Rule 704(b) by expressing
opinions as to the truth or falsity of the allegations, and by expressing that another
witness had testified truthfully. Such testimony “invades the province of the jury.”
Rose v State, 846 N.E. 2d 363, 368 (Ind. Ct. App. 2006); Daubert v Merrill, 509 US
529, 113 S. Ct. 2786 (1993) Dr. Butler’s statements are inadmissible under the ‘recent
fabrication’ exception as well as the ‘medical treatment’ exception.
Dr. Amanda Mayle (“Dr. Mayle”), a psychologist who met with A.H. prior to
the trial to assess her emotional stability and ability to testify at trial [Tr. 177] not
for the purpose of medical diagnosis and treatment due to the alleged molestation.
[PCR Tr. 86] was asked by the State to tell what A.H. said regarding the allegations.

24

Clifton failed to object to Dr. Mayle giving a lengthy narrative from her ‘notes’25
of how Hoglund would make A.H. “suck his privates”. Tr.179. Additionally, the State
asked Dr. Mayle if A.H. “may have fabricated the story” [Tr.80] to which Clifton
objected, arguing that such a determination was for the jury to make, but the trial
court overruled the objection. The State then ‘clarified’ that they had intended to ask
whether A.H. “may have fabricated this story of her abuse out of some need,” and
then asked that question without Clifton lodging an objection. Dr. Mayle answered
“No”. Tr.181. Further, the State asked Dr. Mayle if “in your opinion you believe that
[A.H.] is prone to exaggerate or fantasize in sexual matters?” Tr.181. Dr. Mayle
answered, “I saw no indication of that.” Tr.181. U.S. v Vest, 116 F.3d 1179, 1185 (7th
Cir. 1997) (“the expert was in no better position than a lay person to say whether the
patient testified truthfully”).
Moreover, the State asked Dr. Mayle whether she had an opinion as to the
“credibility of child abuse victims as a whole,” to which she replied that “any child
that makes any accusations should be believed initially, it’s not up to them to prove
that it happened.” (Emphasis-Petitioner) Tr. 181. Credibility is not a proper subject
for expert testimony; the jury does not need an expert to tell it whom to believe, and
the expert’s ‘stamp of approval’ on a particular witness’ testimony may unduly
influence the jury. U.S. v Benson, 941 F.2d 598, 604 (7th Cir. 1991). Dr. Mayle’s

25 At the PCR evidentiary hearing expert witness Stanley Campbell testified that "In cases like this, where
there is no physical evidence, the expert witnesses providing testimony which is consistent with A.H.'s
testimony is'a killer for ya'". [PCRTr. 4],
25

statements are inadmissible under the ‘recent fabrication’ exception as well as the
‘medical treatment’ exception.
Christine Ottaviano Shestak (“Shestak”) a licensed mental health counselor
who met with A.H. on two occasions to help her manage with some anxiety [Tr. 118119] was asked by the State whether she perceived that A.H. “may have fabricated
the story about her abuse out of some need.” Tr. 120. Clifton objected to this question,
arguing that Shestak should not be allowed to testify as to whether A.H. was telling
the truth, but the trial court overruled that objection and allowed Shestak to answer.
Shestak answered that A.H.’s “statements were congruent with her experience and I
did not see anything that indicated that she had any need to tell the story.”26 Tr. 120.
Shestak further testified without objection that she did not learn anything
from her interviews with A.H. that would be inconsistent with A.H. being the victim
of sexual abuse, and that: “In general the research demonstrates and mv clinical
experience upholds that the majority of the children who talk about having been
sexually abused are giving truthful details and that it has happened to them.”
(emphasis petitioner) Tr. 134. The expert was in no better position than a lay person
to say whether the patient testified truthfully. U.S. v Vest, 116 F.3d 1179, 1185 (7th
Cir. 1997); Napue v Illinois, 360 US 264; 79 S. Ct. 1173; 3 L.Ed.2d 1217 (1959) (The
jury’s estimate of the truthfulness and reliability of a given witness may well be

26 While Clifton objected to the question posed by the prosecutor, which asked if A.H. had fabricated the
story out of some need [Tr. 120], However, Clifton did not follow with another objection when Shestak
testified with direct vouching by stating, "Her statements were congruent with her experience." [Tr. 120].

26

determinative of guilt or innocence and it is upon such subtle factors as the possible
interest of the witness in testifying falsely that a defendant’s life or liberty may
depend.) Ms. Shestak’s statements are inadmissible under the ‘recent fabrication’
exception as well as the ‘medical treatment’ exception.
For emphasis, the prosecutor highlighted all of this in his closing: “Again you
have Dr. Mayle’s testimony that the victim is not prone to exaggerate because of
fantasy or need .... Same for Chris Shestak, same thing, no need. Chris Shestak.
victims in her opinion are generally credible.” App. 96. The prosecutor then added his
own form of ‘vouching’ stating:
Tr. 243(3-5):
3

Her story has remained consistent from the time she talked to Detective Holliday, saw Dr.

4

Butler, saw Chris Shestak and saw Dr. Maylc and today. It’s been consistent from the

5

beginning.

Tr. 244 (23-28):
23

is Amanda lying? She is not lying, that’s not her lie. There is no lie. Defense is going to

24

argue Well then yeah, it may not be Amanda’s lie, she must have been told to say that, she

25

must have been coached to say that by her mother. So it’s not Amanda’s lie, it’s mom’s

26

iie, right? Okay, so it’s mom’s lie, mom told her to do this. Why does mom have a need

27

to make this story up? Why would mom go through these details? Well they are going to

28

say probably that she was angry at Mr. Hoglund, he had had an affair, she was angry.

Tr. 272 (1-3):
1

think that’s how it went down? No. Come on. I don’t know how he did it. She says it

2

happened. You have no reason not to believe her of that. The same way I don’t know

3

how he got her to give him oral sex, it happened. Who is to say that the two explanations
27

Prosecutors are forbidden from vouching because their assertions are “apt to carry
much weight against the accused when they should properly carry none.” Berger v.
United States, 295 U.S. 78, 88; 55 S. Ct. 629; 79 L. Ed. 1314 (1935); US v Loayza, 107
F.3d 257, 261 (4th Cir. 1997) (Prosecutors comments during closing argument that he
believed governments witness improper).
There can be little doubt of just how powerful this testimony was. The improper
leverage this sort of testimony gives the prosecution is precisely why the Indiana
Supreme Court overturned the rule allowing it. Hoglund v State, 962 N.E. 2d. 1230
(Ind. 2012) reh’g denied. The court explained that evidentiary rules must “be
interpreted in light of society’s interest as well as an accused’s right to a fair trial.”
Allowing witnesses—especially expert witnesses—to vouch for the credibility of
another witness—-especially a child—eviscerates the possibility of a fair trial. It is no
wonder that “states have overwhelmingly rejected the admission of expert testimony
that comments on a witness’ credibility, or on the credibility of sexually abused
children as a class.” State v Williams, 858 S.W. 2d 796, 800 (Mo. Ct. App. 1993).
Hoglund asks, What is my remedy?
In other circuit(s) it has been found that a jury is perfectly “capable of making
its own conclusions about the believability of the children’s accusations.” State v
Mazerolle, 614 A. 2d 68, 71 (Me. 1992). Jurors do not need “expert testimony on the
possibility that the children were making” the allegations up. Id. When “testimony
concerning the alleged victim’s credibility” is introduced, it “usurps the province of
the trier of fact.” Williams, 858 S.W. 2d at 799. That is particularly the case when the
28

supporting witness is an expert. The testimony then “invests scientific cachet on the
central issue of credibility and presents the danger that jurors may be over-awed by
the evidence, or may defer too quickly to the expert’s opinion.” Id. at 800. Admitting
this evidence is “not only improper,” it is “egregious [and] prejudicial.” State v Boston,
545 N.E. 2d 1220, 1240 (Ohio 1989), overruled on other grounds by State v Dever, 596
N.E. 2d 436 (Ohio 1992).
This is especially true when “the jury’s verdict was the result of its impression
of the witnesses’ credibility,” which was the case here. Williams, 858 S.W. 2d at 801.
Where the accuser’s story is given “an impressively qualified stamp of truthfulness”
a “miscarriage of justice” occurs. Id. The defendant is denied a “fair trial” and due
process. See Boston, 545 N.E. 2d at 1240; see also State v. Lindsey, 149 Ariz. 472, 475
(1986). An out-of-court statement of a declarant presented at trial through a witness
(other than the declarant) and offered for the truth of the matter asserted by the
declarant—is another example of testimony that is inadmissible unless the party
seeking to introduce it can prove that the out of court statement is reliable.
To establish sufficient indicia of reliability, the proponent of the hearsay
statement must prove that the circumstances through which the statements were
obtained possessed “particularized guarantees of trustworthiness . .. drawn from the
totality of the circumstances that surround the making of the statement and that
make the declarant particularly worthy of belief.” Idaho v Wright, 497 U.S. 805, 110
S. Ct. 3139 (1990) (reversing conviction because of absence of specific guarantees of
trustworthiness); Lee v Illinois, 476 U.S. 530, 106 S. Ct. 2056 (1986); Ohio v Roberts,
29

448 U.S. 56, 100 S. Ct. 2539 (1980); United States v Deeb, 13 F. 3d. 1532 (11th cir.
1995) (admission of hearsay is constitutionally impermissible absent indicia of
reliabibty surrounding declaration); United States vAcceturo, 966 F.2d. 631 (11th Cir.
1992) (Only circumstances surrounding the declaration may be considered for
particularized guarantees of trustworthiness). In the instant case, the circumstances
through which the statements were obtained did not possess particularized
guarantees of trustworthiness, nor were they drawn from the totality of the
circumstances that surrounded the making of the statement that made the declarant
particularly worthy of belief. Therefore no indicia of reliability was established.
Indiana’s Evidence Rule 803(4) permits statements made for the purpose of
medical diagnosis or treatment. The Indiana Supreme Court has held that hearsay
statements made by a young patient to a sexual assault nurse examiner were
erroneously admitted where there was no evidence that the Declarant understood the
nurse examiner’s role in order to trigger the motivation to provide truthful
information. VanPatten v State, 986 N.E.2d 255, 267 (Ind.2013). Further, the Indiana
Supreme Court employs a two-step analysis for admission under Rule 803(4). Id. at
260. First, “is the declarant motivated to provide truthful information in order to
promote diagnosis and treatment,” and second “is the content of the statement such
that an expert in the field would reasonably rely on it in rendering diagnosis or
treatment” Id. quoting McClain u State, 675 N.E.2d 329, 331 (Ind. 1996). Accordingly,
when the hearsay testimony sought to be admitted under 803(4) concerns the
statements of a child, “we require a more robust evidentiary foundation [.]” Id. In

30

reviewing the admissibility of testimony under the medical diagnosis or treatment
exception to the hearsay rule in VanPatten, the Court focused on the first prong of
the analysis, which asks “is the declarant motivated to provide truthful information
in order to promote diagnosis and treatment.” McClain v State, 675 N.E.2d 329, 331
(Ind. 1996).
In the instant case, there was no testimony that A.H. understood that she was
being examined for treatment and was required to provide truthful details. Tr. 20-73.
There was no testimony from her parents concerning past experience with medical
facilities from which to infer the patient even knew the purpose of the examination
constituting undue influence. Tr. 88-118; Tr. 197-233. Therefore this testimony is
voidable because the alleged victim had no understanding of the nurse examiner’s
role in order to trigger the motivation to “provide truthful information in order to
promote diagnosis and treatment”. Id.
In Idaho v Wright, the issue before the United States Supreme Court was
whether the out-of-court statements of a child witness in an abuse case were
sufficiently reliable to be admitted as hearsay. The child’s statements were made in
response to mild encouragement offered by a pediatrician during a medical
examination. The statements would be admissible only if they possessed “adequate
indicia of reliability.” The Court found that the physician’s encouragement rendered
the circumstances in which the statements were made devoid of any “special reasons
for supposing that the incriminating statements were particularly trustworthy.”
Thus the child’s statements were constitutionally inadmissible. Wright, 497 U.S. at
31

827, 110 S. Ct. at 3152. The Idaho v Wright court also found that conviction by
unreliable hearsay evidence violates Confrontation Clause Rights. Id. at 814.
Hoglund was convicted of unreliable hearsay evidence. Therefore Hoglund’s
conviction violates the Confrontation Clause Rights as well.
Further, scientific research illustrates that once a child has been subjected to
suggestive interviews, there is no way to determine whether the child’s statements
are the product of the child’s experience or the interviewers’ bias and suggestive
methods. Accordingly, the investigator tactics compromised the trustworthiness of
the child’s post suggestion statements to the point that they should be disregarded
and accorded no weight.27 Moreover, the use of suggestive methods to elicit
accusations raises the concern that the content of those accusations is not based on
the child’s experience but, rather on the suggestions. Accordingly, there is no way to
determine whether the accusations are what they purport to be. Absent some showing
of reliability, the testimony or accusations—like any evidence—are legally
inadmissible.
Further, the due process ground for excluding a child’s post-suggestion
statements is based on the fact that once a child is subjected to suggestive interviews,
there is no way to determine whether the child’s resulting accusations are the product
of actual experience or the suggestion. This is the same basis as that which requires
the exclusion of suggestion-induced identifications, hypnotically induced testimony,

27 Crane v Kentucky, 476 US 683, 688, 106 S. Ct. 214, 2145 (1986) (challenge to legal admissibility of
evidence does not undercut defendants prerogative to challenge its credibility at trial), citing Jackson v
Denno, 378 US 368(1964)
32

and out of court statements elicited in circumstances devoid of guarantees of
tr ustworthine ss.28
The Confrontation Clause basis for excluding a child’s post-suggestion
statements is because post suggestion inaccurate reports are indistinguishable from
accurate reports, and subsequent questioning cannot distinguish true from
suggestion-induced reports,29 cross examination is rendered ineffective by the use of
suggestion. Likewise, the statements from the child do not achieve reliability by being
introduced through someone other than the child as hearsay, in which case the
defendant has lost even the opportunity to cross examine the child. Simply, when
cross examination is impossible or is known to be rendered ineffective by some
investigative method then the unreliable testimony must be excluded.30
In sum, Hoglund is entitled to relief because there is a reasonable probability
that without the bolstering hearsay testimony of the experts the trial would have
come out differently. “[T]o a jury recognizing the awesome dilemma of whom to
believe, an expert will often represent the only seemingly objective source, offering a

28 See, Idaho v Wright; supra; State v Michaels, 642 A.2d 1372,1384 (NJ. 1994); People v. Michael M., 618
N.Y.S. 2d 316 (Sup. Ct. Kings Co. N.Y. 1994), and People v Hughes, 466 N.Y.S.2d 255 (1983) for a discussion
of similarities between suggestive identifications, coerced confessions, hypnotically refreshed testimony
and suggestive interviews.
29 Ackil and Zaragoza (1998); Poole, D.A., & Lindsay, D. S. (2001). Children's eyewitness reports after
exposure to misinformation from parents. Journal of Experimental Psychology: Applied, 7, 27-50; Poole
D.A., & Lindsay, D.S. (1995). Interviewing preschoolers: effects of nonsuggestive techniques, parental
coaching, and leading questions on reports of non-experienced events. Journal of Experimental Child
Psychology, 60, 129-154. Garvin (2000)
30 State v Wright, 116 Idaho, 382, 775 P.2d 1224, 1228 (1989), aff'd. Idaho v Wright, supra "[o]nce this
tainting of [a-childs] memory has occurred, the problem is irredeemable. That memory is, from then on, as
real to the child as any other"
33

much sought after hook on which to hang its hat.” Steward v. State, 652 N.E.2d 490
(1995) quoting People v Beckley, 434 Mich. 691, 456 N.W.2d 391, 404). These out of
court statements offered by the experts were not only detrimental to Hoglund, but
were inadmissible under the ‘recent fabrication’ exception as well as the ‘medical
treatment’ exception.
In addition to repeating what A.H. allegedly told them, the three experts and
the prosecutor testified she was telling the truth. “The jury’s estimate of the
truthfulness and reliability of a given witness may well be determinative of guilt or
innocence and it is upon such subtle factors as the possible interest of the witness in
testifying falsely that a defendant’s life or liberty may depend.’Wapzxe u Illinois (1959)
360 US 264, 79 S. Ct. 1173, 3 L. Ed. 2d 1217. Again and again, experts—trained to
evaluate victims of sexual abuse— and the prosecutor told the jury the girl was telling
the truth. The Indiana Supreme Court has held that this type of testimony was
intolerable. Craig v State, 630 N.E.2d 207 (Ind. 1994); Douglas v State, 484 N.E.2d
610 (1985) (the trial court committed reversible error by allowing a psychiatric social
worker to give an opinion of the truthfulness testimony of the victims child.)
This Court must correct this view of the facts and evidence under the proper
analysis and then weigh such to determine under the totality of the circumstances of
whether such was harmless beyond a reasonable doubt. When done, such must be
reversed as fundamental error and order Hoglund a new trial without the improper
vouching and hearsay testimony of the scientific experts that the jury obviously gave
substantial weight to their improper testimony.
34

Issue II: Keith Hoglund’s procedural and substantive due process rights were violated
when the lower courts found the admission of expert vouching testimony in this matter
harmless under the circumstances and facts of this case violating the Sixth, Eighth,
Ninth, and Fourteenth Constitutional Amendments for the united States.
A petitioner is entitled to habeas relief when “an erroneous evidentiary ruling”
is “so prejudicial that it comprises the petitioner’s due process right to a
fundamentally fair trial.” Howard v O’Sullivan, 185 F. 3d 721, 723-24 (CA7 1999).
This occurs when the error caused “a significant hkelihood that an innocent person
has been convicted.” Id. The error here rises to that level. This Court should grant
relief because Hoglund received ineffective assistance of counsel. Hoglund’s counsel
failed to object properly when the state solicited hearsay testimony from expert
witnesses. Those witnesses were allowed to recount what A.H. allegedly told them,
enhancing the accuser’s credibility. Both the state court and the district court found
this to be deficient performance. Despite the fact that trial counsel’s performance fell
below the standard of reasonableness, now the state and federal court(s) have
seemingly rejected Hoglund’s ineffective assistance claim. This holding is contrary to
clearly established federal law.
Because the claim is “unique,” it is worth considering afresh what the jury
heard from the experts. RSA 7.31 Dr. Butler told the jury, “I don’t believe an eight
year old would come into a physician’s office to speak about sexual fantasies or made
up stories.” RSA 8. She also said, “I believe that what [A.H.] told me was the truth.”
Id.

31 RSA is located in APPENDIX C

35

The second expert testified, “I did not see anything that indicated that she had
any need to tell this story.” RSA 9. She agreed with the prosecutor that there was
nothing “inconsistent with [the girl] being the victim of sexual abuse.” Id. And,
according to her research, “the majority of children who talk about having been
sexually abused are giving truthful details and that it has happened to them.” Id.
Then a psychologist told the jury there was no “indication that [A.H.] may have
fabricated this story.” Id. The psychologist also said A.H. was not prone to exaggerate,
that there was nothing inconsistent with A.H. being a victim, and that “any child that
makes any accusations should be believed initially.” RSA 10
Finally, the prosecutor highlighted all of this in his closing: “Again you have
Dr. Mayle’s testimony that the victim is not prone to exaggerate because of fantasy
or need .... Same for Chris Shestak, same thing, no need. Chris Shestak, victims in
her opinion are generally credible.” App. 96. The Seventh Circuit Court and the
United States Supreme Court have held that a prosecutor may not “vouch” for the
credibility of witnesses by “express[ing] her personal opinion about the truthfulness
of a witness.” United States v Cornett, 232 F. 3d 570, 575-76 (CA7 2000); Berger, 295
U.S. at 88. Vouching “undermine[s] the jury’s role as independent factfinder, in the
first instance by placing the prestige of the government behind the witness.” United
States v Renteria, 106 F.3d 765, 767 (CA7 1997).
In evaluating whether a prosecutor’s vouching crosses the due process line, the
Court has considered a number of factors, including (1) the nature and seriousness of
the misconduct; (2) the weight of the evidence against the defendant; (3) whether the
36

court adequately addressed the matter; and (4) what the defense’s role was in inviting
the misconduct and whether the defense had an opportunity to respond. See United
States v Memar, 906 F. 3d 652, 658-59 (CA7 2018). Adapting those factors to the
present context, it is clear Hoglund was denied a fair trial.
First the power of the vouching is hard to overstate. The case was he-said, shesaid. As described, supra, there was no eyewitness; no physical evidence. The only
evidence was the accuser’s testimony as to what happened (and of course the vouching
testimony). When vouching occurs “and the case is not otherwise a strong one,
prejudice to the cause of the accused is so highly probable that we are not justified in
assuming its nonexistence.” Jordan v Hepp, 831 F.3d 837, 848 (CA7 2016).
This is such a case. The only real difference between Jordan and Hoglund’s is
that in Jordan there was a lone prosecutor vouching. Here, there were three experts
and a prosecutor vouching. (Coincidently, the prosecutor in Jordan repeated his
vouching claim “three times.” 831 F. 3d at 847). If anything, then, this is a stronger
case for a due process violation. Prosecutors are forbidden from vouching because
their assertions are “apt to carry much weight against the accused when they should
properly carry none.” Berger, 295 U.S. at 88. But jurors also understand that the
prosecutor has an interest in ensuring conviction. When experts testify, however,
jurors are likely to view them as disinterested and objective, thus presenting an even
greater danger that jurors will substitute the witness’s credibility determination for
the jurors’ own. Here, without the experts’ “improper vouching,” the prosecution’s
case was not a strong one. Jordan, 831 F. 3d at 847. The prejudice against Hoglund
37

was “so highly probable” that this Court is “not justified in assuming its
nonexistence.” Id.
Second, and relatedly, the weight of the evidence against Hoglund—without
the vouching testimony—was not great. As discussed above, with the experts’
testimony stripped away, the evidence is at best in equipoise. The daughter made
accusations; the defendant denied them. The court(s) below recognized that the
evidence against Hoglund was “not overwhelming.” RSA 6. Thus, the vouching
testimony cannot be considered harmless. See Jordan, 831 F. 3d. at 848.
Third, the trial court failed to cure the vouching testimony. The court did
nothing when it came to two of the experts, despite counsel’s “continuing objection as
to any opinion as to whether or not [the girl] is telling the truth.” RSA 8. It is true
that the court told the jury not to consider Dr. Butler’s opinion of the girl’s
truthfulness. But the instruction came after the bell had rung. And the judge did not
give any such instruction as to Shestak or Mayle. Thus, the jury must have assumed
that it was free to consider Shestak’s and Mayle’s opinions as to the girl’s credibility.
Fourth, the defense did not invite the expert witnesses’ vouching and did not
have a chance to respond adequately. The vouching testimony was entirely
gratuitous. In fact, defense counsel objected to much of the vouching testimony.
Nonetheless, the court overruled the objections as to two of the witnesses, robbing
defense counsel of an effective means to respond to the testimony.
All these factors point in one direction: Hoglund was denied a fair trial. This
sort of testimony is banned by nearly every state because of how prejudicial it is. See
38

Williams, 858 S.W. 2d at 800. Here, there wasn’t just one witness vouching for the
credibility of another witness. There was a prosecutor and three experts—each
trained in evaluating and treating victims of sexual abuse—telling the jury that there
was no doubt A.H. was telling the truth.
As the district court recognized, “neither” state court “decision discussed
whether the vouching testimony in its entirety was prejudicial.” RSA 10. Without
assessing the prejudice caused by the vouching, neither court could fairly determine
whether the testimony was so prejudicial as. to compromise “the petitioner’s due
process right to a fundamentally fair trial.” Howard, 185 F. 3d at 723-24. Had
Indiana’s supreme court conducted the requisite prejudice analysis, as outlined
above, it would have concluded that the vouching violated Hoglund’s due process
rights. Because Hoglund was denied a fair trial, he is entitled to habeas relief.
CONCLUSION
The cumulative errors of the improper hearsay and vouching testimony at
issue in this case, when weighed properly in connection to the lack of ‘reliable’
evidence, it is apparent that it was not only fundamental error, but was not
cumulative of other evidence and thus “tipped the scale” unfairly against Petitioner
and for the state of Indiana in this matter of credibility. It is highly probable, if not
inevitable, the jury gave serious weight to this evidence. As such, under the totality
of the circumstances, this evidence cannot be considered harmless. The jury’s verdict
should have been based upon reason and common sense and not doubt based upon
imagination and/or speculation. Hoglund was never even given a fair chance. Justice
39

Harlan noted In Re Winship, 397 US 358, 364 (1970) that the standard is founded on
“A fundamental value determination of our society that it is far worse to convict an
innocent man than to let a guilty man go free.” Id at 372
WHEREFORE, based upon the foregoing points and authorities, the Petitioner
respectfully requests this Honorable Court to grant this writ of certiorari and reverse
the judgment of the lower Court(s); and for any and all other relief deemed necessary
in the premises to which Hoglund is entitled.
s/ KEITH HOGLUND
DEBTOR Signature
By:
For all communiques elsewhere
‘Without prejudice”
Keith Hoglund, SPC; Agent
in behalf of the KEITH HOGLUND TRUST®
c/o ONE Park Row
City of Michigan City, Indiana state, united States of America
DMM Reg. sec. 122.32; Public law 91-375, sec. 403
Appellant “pro per”

40

